Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 1 of 7. PageID #: 274

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO

§
§
§
§
§
§
§

UNITED STATES OF AMERICA
v.
RASHAWN D. WATSON

THE DEFENDANT:
☒ pleaded guilty to count(s)
☐
☐
☐

JUDGMENT IN A CRIMINAL CASE

Case Number: 1:19-CR-00085-JG(1)
USM Number: 65476-060
Joseph P. Morse and Albert A. Giuliani
Defendant’s Attorney

1-5 of the Indictment

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not guilty

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
21:841(a)(1), (b)(1)(B) Possession With Intent To Distribute Controlled Substances.
21:841(a)(1), (b)(1)(C); 21:851 Possession With Intent To Distribute A Controlled Substance.
21:841(a)(1), (b)(1)(C); 21:851 Possession With Intent To Distribute A Controlled Substance.
18:922(g)(1) and 924(a)(2) Felon In Possession Of a Firearm and Ammunition.
18:924(c), (c)(1)(A)(i), (c)(1)(D)(i), (c)(1)(D)(i)(ii) Possession Of A Firearm In Furtherance Of A
Drug Trafficking Crime.

Offense Ended

Count

03/07/2018
03/07/2018
03/07/2018
03/07/2018
03/07/2018

1
2
3
4
5

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

June 26, 2019
Date of Imposition of Judgment

s/

James S. Gwin

Signature of Judge

JAMES S. GWIN, UNITED STATES DISTRICT JUDGE
Name and Title of Judge

June 28, 2019
Date

1a

Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 2 of 7. PageID #: 275
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 7

RASHAWN D. WATSON
1:19-CR-00085-JG(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
130 months as to Counts 1-4 to be served concurrently and 60 months as to Count 5 of the Indictment to be served consecutively for a
total of 190 months with credit for time served on the instant offenses.

☒ The court makes the following recommendations to the Bureau of Prisons:
RDAP; FCI Morgantown

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

☐

a.m.

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

2a

Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 3 of 7. PageID #: 276
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 7

RASHAWN D. WATSON
1:19-CR-00085-JG(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of : 6 years on Counts 1-3 and 3 years on
Counts 4-5 all served concurrently

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you

4.

☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence

pose a low risk of future substance abuse. (check if applicable)
of restitution (check if applicable)

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
5.

seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

3a

Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 4 of 7. PageID #: 277
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 7

RASHAWN D. WATSON
1:19-CR-00085-JG(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change. If not in compliance with the condition of supervision requiring full-time
occupation, you may be directed to perform up to 20 hours of community service per week until employed, as approved or directed by
the pretrial services and probation officer.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. As directed by the probation officer, you shall notify third parties who may be impacted by the nature of the conduct underlying
your current or prior offense(s) of conviction and/or shall permit the probation officer to make such notifications, and/or confirm your
compliance with this requirement.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at the www.uscourts.gov.
Defendant’s Signature

Date

4a

Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 5 of 7. PageID #: 278
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 7

RASHAWN D. WATSON
1:19-CR-00085-JG(1)

SPECIAL CONDITIONS OF SUPERVISION
Substance Abuse Treatment and Testing
The defendant shall participate in an approved program of substance abuse testing and/or outpatient or inpatient
substance abuse treatment as directed by their supervising officer; and abide by the rules of the treatment program.
The probation officer will supervise your participation in the program (provider, location, modality, duration,
intensity, etc.). The defendant shall not obstruct or attempt to obstruct or tamper, in any fashion, with the efficiency
and accuracy of any prohibited substance testing.
Cognitive Behavioral Treatment
You must participate in a cognitive-behavioral treatment program and follow the rules and regulations of that
program. The probation officer will supervise your participation in the program (provider, location, modality,
duration, intensity, etc.).
Search / Seizure
You must submit your person, property, house, residence, vehicle, papers, computers (as defined in 18 U.S.C. §
1030(e)(1)), other electronic communications or data storage devices or media, or office, to a search conducted by a
United States probation officer. Failure to submit to a search may be grounds for revocation of release. You must
warn any other occupants that the premises may be subject to searches pursuant to this condition.
The probation officer may conduct a search under this condition only when reasonable suspicion exists that you have
violated a condition of supervision and that the areas to be searched contain evidence of this violation. Any search
must be conducted at a reasonable time and in a reasonable manner.
Mental Health Treatment
You must undergo a mental health evaluation and/or participate in a mental health treatment program and follow the
rules and regulations of that program. The probation officer, in consultation with the treatment provider, will
supervise your participation in the program (provider, location, modality, duration, intensity, etc.).

5a

Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 6 of 7. PageID #: 279
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 7

RASHAWN D. WATSON
1:19-CR-00085-JG(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
JVTA Assessment*
Fine
TOTALS
$500.00
$.00
$.00

Restitution
$.00

☐ The determination of restitution is deferred until


An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

6a

Case: 1:19-cr-00085-JG Doc #: 42 Filed: 06/28/19 7 of 7. PageID #: 280
AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of 7

RASHAWN D. WATSON
1:19-CR-00085-JG(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐ Lump sum payments of $

due immediately, balance due

☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $500.00 for Counts 1, 2, 3, 4
and 5 , which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.


Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

7a

Case: 19-3658

Document: 44-2

Filed: 07/17/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0415n.06
No. 19-3658
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
RASHAWN D. WATSON,
Defendant-Appellant.

)
)
)
)
)
)
)
)

Jul 17, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO

BEFORE: MOORE, CLAY, and MURPHY, Circuit Judges.
MURPHY, Circuit Judge. Federal law prohibits certain categories of individuals from
possessing firearms, including individuals who have been convicted of a felony. 18 U.S.C.
§§ 922(g)(1), 924(a)(2). Before 2019, our court and most others had long held that this law’s
intent element required defendants to know only that they were in possession of a firearm. See,
e.g., United States v. Conley, 802 F. App’x 919, 922 (6th Cir. 2020). In Rehaif v. United States,
139 S. Ct. 2191 (2019), however, the Supreme Court clarified that defendants must additionally
know that they fall within one of the categories of individuals who may not possess firearms. Id.
at 2194. After Rehaif, therefore, those charged with being a felon in possession of a firearm must
know both that they possessed the firearm and that they had previously been convicted of a felony.
This case arose before Rehaif. Rashawn Watson was indicted for, among other crimes,
being a felon in possession of a firearm. He ultimately pleaded guilty. But neither his indictment

8a

Case: 19-3658

Document: 44-2

Filed: 07/17/2020

Page: 2

No. 19-3658, United States v. Watson
nor his plea agreement mentioned whether Watson knew of his status as a felon—as is now
required by Rehaif. On appeal, Watson seeks to invoke that decision to overturn his guilty plea.
Because we recently rejected a challenge largely identical to Watson’s, see United States v. Hobbs,
953 F.3d 853, 856–58 (6th Cir. 2020), we affirm.
Three times in early 2018, Watson sold fentanyl at his tobacco business to a confidential
informant. These controlled buys led investigators to get a warrant to search Watson’s store, truck,
and nearby stash house. Investigators found three firearms, ammunition, and illegal drugs.
An indictment charged Watson with three drug counts, see 21 U.S.C. § 841(a)(1), with
being a felon in possession of a firearm, see 18 U.S.C. § 922(g), and with possessing a firearm in
furtherance of a drug-trafficking crime, see id. § 924(c)(1).

The felon-in-possession count

specified that Watson had previously been convicted of three felonies and that he knowingly
possessed three firearms and ammunition. This count did not specify that Watson knew that he
had previously been convicted of those felonies.
In May 2019, shortly before the Supreme Court issued Rehaif, Watson pleaded guilty to all
five counts. His plea agreement did not require him to admit that he knew of his felon status, but
he did admit that he knowingly possessed the firearms and ammunition. During the plea colloquy,
the district court likewise did not ask Watson to admit that he knew of his status as a felon at the
time that he possessed the firearms.
At sentencing, the district court found that Watson qualified as a career offender under
U.S.S.G. § 4B1.1. This career-offender designation meant that Watson’s guidelines range was
262 to 327 months in prison. Varying substantially downward from that range, the district court
sentenced Watson to 190 months in prison, followed by six years of supervised release. Although

2

9a

Case: 19-3658

Document: 44-2

Filed: 07/17/2020

Page: 3

No. 19-3658, United States v. Watson
Watson’s sentencing occurred after Rehaif, he never asserted any type of Rehaif claim in the
district court.
On appeal, Watson challenged both his career-offender enhancement and his felon-inpossession conviction. We have already granted the government’s motion to dismiss Watson’s
career-offender claim because his plea agreement included an appeal waiver that barred him from
asserting it. See United States v. Watson, No. 19-3658 (6th Cir. Mar. 3, 2020) (order). We thus
need only consider Watson’s Rehaif arguments. He contends that Rehaif requires us to vacate his
felon-in-possession conviction for both jurisdictional and merits reasons. After Watson filed his
opening brief, our decision in Hobbs rejected the same types of arguments. 953 F.3d at 856–58.
Hobbs leads us to affirm in this case too.
1. Jurisdictional Challenge. According to Watson, the indictment’s failure to allege the
Rehaif-required element (that he knew of his status as a felon) deprived the district court of
jurisdiction to convict him of a felon-in-possession offense. Not so. Based on United States v.
Cotton, 535 U.S. 625 (2002), Hobbs already explained why a missing element in an indictment
does not affect a federal court’s subject-matter jurisdiction. See 953 F.3d at 856–57. The Supreme
Court has repeatedly clarified in recent decades that the word “jurisdiction” has a narrow domain,
referring to “the courts’ statutory or constitutional power to adjudicate the case.” Cotton, 535 U.S.
at 630 (quoting Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 89 (1998)); see, e.g., Eberhart
v. United States, 546 U.S. 12, 16 (2005) (per curiam). Consistent with this caselaw, Cotton held
that “defects in an indictment” are not jurisdictional because they do not deprive courts of their
power to adjudicate a criminal case. 535 U.S. at 630. That power instead arises from a federal
statute that gives district courts jurisdiction over “all offenses against the laws of the United
States.” 18 U.S.C. § 3231; see Cotton, 535 U.S. at 630–31.

3

10a

Case: 19-3658

Document: 44-2

Filed: 07/17/2020

Page: 4

No. 19-3658, United States v. Watson
Hobbs applied Cotton’s logic to a defective felon-in-possession indictment that omitted
Rehaif’s knowledge-of-status element. 953 F.3d at 856–57. When doing so, Hobbs recognized
that other courts had “rejected the notion that an indictment’s failure to allege the ‘knowledge-ofstatus’ element required by Rehaif deprives the court of jurisdiction.” Id. (citing United States v.
Balde, 943 F.3d 73, 92 (2d Cir. 2019); United States v. Burghardt, 939 F.3d 397, 402 (1st Cir.
2019)). Since Hobbs, courts have continued to reject this notion. See United States v. Maez, 960
F.3d 949, 956 (7th Cir. 2020); United States v. Espinoza, __ F. App’x __, 2020 WL 2844542, at
*1 (9th Cir. June 1, 2020) (mem.); United States v. Moore, 954 F.3d 1322, 1332–37 (11th Cir.
2020). Just as in Hobbs and these many other cases, any deficiency in Watson’s indictment “did
not deprive the district court of jurisdiction.” 953 F.3d at 857.
In response, Watson asks us to revisit Hobbs. But a panel of this court may not overrule a
previous panel’s published opinion. Watson should direct any disagreement with Hobbs to our en
banc court, see, e.g., Salmi v. Sec’y of Health & Human Servs., 774 F.2d 685, 689 (6th Cir. 1985),
and he should direct any disagreement with Cotton to the Supreme Court, see, e.g., Agostini v.
Felton, 521 U.S. 203, 237 (1997).
2. Merits Challenge. Watson makes two Rehaif arguments on the merits. He initially
asserts that the indictment’s failure to allege Rehaif’s knowledge-of-status element rendered it
defective because indictments must include all elements of an offense. See United States v.
Resendiz-Ponce, 549 U.S. 102, 107 (2007). Watson next argues that his plea was unknowing and
involuntary (and so unconstitutional) because the district court failed to inform him of this element
and to ensure he knew of his status as a felon when he possessed the firearms. See Bousley v.
United States, 523 U.S. 614, 618–19 (1998).

4

11a

Case: 19-3658

Document: 44-2

Filed: 07/17/2020

Page: 5

No. 19-3658, United States v. Watson
Watson did not raise these arguments in the district court, so we review them for plain
error. See Hobbs, 953 F.3d at 857; Conley, 802 F. App’x at 922; see also Maez, 960 F.3d at 957.
To prevail on plain-error review, Watson must identify “an ‘(1) error (2) that was obvious or clear,
(3) that affected [his] substantial rights and (4) that affected the fairness, integrity, or public
reputation of the judicial proceedings.’” Hobbs, 953 F.3d at 857 (citation omitted). As we did in
Hobbs, we will resolve Watson’s claims on the third (prejudice) prong of this plain-error test. “An
error affects a defendant’s substantial rights if there is a reasonable probability that, but for the
error, the outcome of the proceeding would have been different.” Id. (quoting Molina-Martinez v.
United States, 136 S. Ct. 1338, 1343 (2016)) (internal quotation marks omitted). This test thus
requires Watson to show “a reasonable probability that, but for the alleged failure to inform him
of [Rehaif’s] knowledge-of-status element, he would not have entered the plea.” Id. (quoting
United States v. Dominguez-Benitez, 542 U.S. 74, 76 (2004)) (alteration omitted). A defendant
may satisfy this burden by pointing to “contemporaneous evidence suggest[ing] that he would have
rejected the plea deal[.]” Id.
Watson does not make this showing. On appeal, he has not even argued that he would have
stood trial if the government had to prove that he knew of his felon status, nor has he pointed to
any contemporaneous evidence suggesting that he would have done so. Moreover, as in Hobbs,
“[p]utting the government to its burden of proof would have cost [Watson] the potential benefit of
his plea without gaining him anything.” Id. at 858 (alteration and citation omitted). Thus, he does
not show a reasonable probability that the outcome of the proceeding would have been different
absent the Rehaif error.
Watson’s response does not change things. He cites a footnote from Dominguez-Benitez
suggesting that an unconstitutional guilty plea without a plea colloquy explaining the rights that a

5

12a

Case: 19-3658

Document: 44-2

Filed: 07/17/2020

Page: 6

No. 19-3658, United States v. Watson
defendant was waiving could not “be saved even by overwhelming evidence that the defendant
would have pleaded guilty regardless.” 542 U.S. at 84 n.10 (discussing Boykin v. Alabama, 395
U.S. 238, 243 (1969)). Relying on this footnote, the Fourth Circuit has held that a district court’s
failure to notify a defendant of Rehaif’s knowledge-of-status element at a plea hearing qualifies as
“structural error” that automatically meets the plain-error test’s prejudice prong. See United States
v. Gary, 954 F.3d 194, 202–07 (4th Cir. 2020). In Hobbs, however, we held that a defendant who
pleads guilty must show prejudice from a district court’s failure to explain Rehaif’s knowledgeof-status element. See 953 F.3d at 857–58. We nowhere suggested that such a failure could qualify
as structural error. Id.; cf. Ruelas v. Wolfenbarger, 580 F.3d 403, 410–11 (6th Cir. 2009); United
States v. Stewart, 306 F.3d 295, 318–23 (6th Cir. 2002). Watson’s argument is incompatible with
Hobbs.
In addition, most other circuit courts agree with Hobbs’s approach. Several have expressly
rejected the argument that a district court’s failure to notify a defendant of Rehaif’s knowledge-ofstatus element at a plea hearing counts as structural error. See, e.g., United States v. Coleman, 961
F.3d 1024, 1028–30 (8th Cir. 2020); United States v. Trujillo, 960 F.3d 1196, 1201–08 (10th Cir.
2020); United States v. Hicks, 958 F.3d 399, 401 (5th Cir. 2020). Others have, like Hobbs, rejected
Rehaif arguments under the prejudice prong of the plain-error test. See United States v. McLellan,
958 F.3d 1110, 1120 (11th Cir. 2020); United States v. Williams, 946 F.3d 968, 973–74 (7th Cir.
2020); Burghardt, 939 F.3d at 403–05.
We affirm.

6

13a

